Office of Material Loss Reviews
Report No. MLR-10-042


Material Loss Review of Citizens State Bank,
New Baltimore, Michigan




                                     July 2010
                                      Executive Summary

                                      Material Loss Review of Citizens State Bank,
                                      New Baltimore, Michigan
                                                                                       Report No. MLR-10-042
                                                                                                    July 2010

Why We Did The Audit

The FDIC Office of Inspector General (OIG) contracted with KPMG LLP (KPMG) to conduct a material
loss review of Citizens State Bank (CSB), New Baltimore, Michigan.

On December 18, 2009, the Michigan Office of Financial and Insurance Regulation (OFIR) closed CSB
and named the FDIC as receiver. On January 20, 2010, the FDIC notified the OIG that CSB’s total assets
at closing were $167.8 million. As of January 29, 2010, the estimated loss to the Deposit Insurance Fund
(DIF) was $30.65 million. The OIG was required by section 38(k) of the Federal Deposit Insurance (FDI)
Act to conduct a material loss review of the failure of CSB and retained KPMG for this purpose.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.


Background

CSB was established in 1922 as a state nonmember bank and was wholly-owned by Citizens State
Bancorp, Inc., a one-bank holding company. The bank’s Board of Directors (Board) controlled
12 percent of the holding company’s stock. CSB operated seven branches throughout the Detroit,
Michigan metropolitan area—six in Macomb County and one in St. Clair County.

Until 2002, CSB’s loan portfolio had primarily consisted of 1-4 family residential loans. As the banking
industry and real estate market changed in the early 2000s, CSB’s Board reassessed its business strategy
and business model. Based upon an external assessment, the Board opted to shift its focus in 2003 to CRE
lending in order to remain competitive in the marketplace.


Audit Results

Causes of Failure and Material Loss

CSB’s failure can be attributed to (1) inadequate management and Board oversight; (2) a high
concentration in CRE lending; (3) weaknesses in internal controls and questionable credit underwriting;
and (4) poor credit risk management practices. Some of these practices, and their apparent significant
impact on the failure of CSB, are the subject of ongoing investigative activities. Bank management and
the Board pursued a business strategy based on a highly concentrated loan portfolio, with limited
experience in CRE lending and without establishing the appropriate practices to mitigate the
corresponding risks. The bank’s financial deterioration was exacerbated by the depressed economic
conditions, deteriorating automobile industry, and high unemployment rates prevalent in the Detroit
metropolitan area.




                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Citizens State Bank,
                                      New Baltimore, Michigan
                                                                                      Report No. MLR-10-042
                                                                                                   July 2010



The FDIC’s Supervision of CSB

Through onsite examinations and a visitation, the FDIC and the OFIR identified key risks in CSB’s
operations and brought these to management’s attention. These risks included inadequate management
and Board oversight, high concentrations in CRE lending, weaknesses in internal controls and credit
underwriting, and poor credit risk management practices. Examiners also noted the adverse changes in the
local Michigan economy. In 2008, the FDIC and the OFIR pursued a Memorandum of Understanding as a
result of unsatisfactory practices and conditions noted in the March 2008 examination. The FDIC also
issued a Cease and Desist Order as a result of the May 2009 examination. In retrospect, CSB’s change in
lending strategy consisting of higher CRE concentrations warranted elevated concern by examiners as
early as the 2005 FDIC examination. Additionally, regulators may have benefited from on-site follow-up
in addition to offsite monitoring following the December 2006 State examination to have greater
assurance that the bank was correcting critical credit administration weaknesses.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner. CSB was unsuccessful in raising needed capital, and
the bank was subsequently closed on December 18, 2009.


Management Response

After we issued our draft report, we met with management officials to further discuss our results.
Management provided additional information for our consideration, and we revised our report to reflect
this information, as appropriate. On July 20, 2010, the Director, Division of Supervision and Consumer
Protection (DSC), provided a written response to the draft report. That response is provided in its entirety
on page II-2 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of CSB’s failure and the FDIC’s supervision
of the bank. DSC stated that strong supervisory attention is necessary for institutions with high CRE
concentrations. DSC has issued updated guidance re-emphasizing the importance of robust credit risk-
management practices for institutions with concentrated CRE exposures and setting forth broad
supervisory expectations.




                                  To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                   Office of Inspector General




DATE:                                     July 20, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Citizens State Bank,
                                          New Baltimore, Michigan
                                          (Report No. MLR-10-042)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall audit results. The report did not contain
recommendations, thus a response was not required. However, the Division of Supervision and
Consumer Protection provided a written response on July 20, 2010. We incorporated the
response into Part II of the final report.

If you have questions concerning the report, please contact me at (703) 562-6352 or Ann Lewis,
Audit Manager, at (703) 562-6379. We appreciate the courtesies extended to the audit staff.

Attachment

cc: M. Anthony Lowe, Regional Director, DSC
    Elaine D. Drapeau, Acting Chief, Office of Internal Control and Review, DSC
    James H. Angel, Jr., Director, OERM
    Ken Ross, Commissioner, Michigan Office of Financial and Insurance Regulation
                           Table of Contents

Part I

   Report by KPMG LLP                                          I-1
   Material Loss Review, Citizens State Bank, New Baltimore,
   Michigan

Part II

   OIG Evaluation of Management Response                       II-1

   Corporation Comments                                        II-2
      Part I

Report by KPMG LLP
               Material Loss Review
                Citizens State Bank
              New Baltimore, Michigan




Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General


KPMG LLP
2001 M Street, NW
Washington, DC 20036
                                   Table of Contents

Executive Summary                                                                       I-1

Why We Did The Audit                                                                    I-3

Background                                                                              I-3

Causes of Failure and Material Loss                                                     I-4
  Management and Board Oversight                                                        I-4
  Concentration in CRE Lending                                                          I-6
  Internal Controls and Credit Underwriting                                             I-7
  Credit Risk Management Practices                                                      I-8

The FDIC’s Supervision of Citizens State Bank                                            I-9
  Supervisory History                                                                  I-10
  Supervisory Response Related to Management and Board Oversight                       I-11
  Supervisory Response Related to CRE Lending                                          I-12
  Supervisory Response Related to Internal Controls and Credit Underwriting            I-14
  Supervisory Response Related to Credit Risk Management Practices                     I-15
  Off-site Reviews                                                                     I-17
  Implementation of PCA                                                                I-19

Appendices
  Objectives, Scope, and Methodology                                                   I-22
  Glossary of Terms                                                                    I-25
  Acronyms                                                                             I-27 

Tables
  1: Financial Condition of CSB                                                       I-4
  2: CSB’s Examination History from 2004 to 2009                                    I-10
  3: Examiners’ Comments Related to CSB’s CRE Concentrations from 2004 through 2009 I-12
  4: Summary of Off-site reviews of CSB                                             I-18
  5: Summary of CSB’s PCA Capitalization Categories                                 I-19

Figures
   1: CSB’s CRE Loans as a Percentage of Total Capital                                  I-6
   2: Summary of CSB’s Loan Mix as a Percentage of Total Loans                          I-7
   3: CSB’s CRE Concentration as a Percentage of Total Capital Compared to Peer Group I-13
   4: Composition and Growth of CSB’s Loan Portfolio                                  I-14
                            KPMG LLP
                            2001 M Street, NW
                            Washington, DC 20036




July 19, 2010

Executive Summary

Stephen M. Beard
Assistant Inspector General for Material Loss Reviews
Federal Deposit Insurance Corporation
3501 North Fairfax Drive
Arlington, VA 22226

Material Loss Review Report for Citizens State Bank, New Baltimore, Michigan
Dear Mr. Beard:
This is our performance audit report on the results of the Material Loss Review for Citizens State
Bank (CSB or the Bank), New Baltimore, Michigan. The objectives of this performance audit
were to (1) determine the causes of CSB’s failure and the resulting material loss to the Deposit
Insurance Fund (DIF) and (2) evaluate the FDIC’s supervision of CSB, including the FDIC’s
implementation of the Prompt Corrective Action (PCA) provisions of section 38.
Causes of Failure
CSB’s failure can be attributed to (1) inadequate management and Board of Directors (Board)
oversight; (2) a high concentration in Commercial Real Estate (CRE) lending; (3) weaknesses in
internal controls and questionable credit underwriting; and (4) poor credit risk management
practices. Some of these practices and their apparent significant impact on the failure of CSB are
the subject of ongoing investigative activities. Management and the Board pursued a business
strategy based on a highly concentrated loan portfolio, with limited experience in CRE lending
and without establishing the appropriate practices to mitigate the corresponding risks. The Bank’s
rapid financial deterioration was exacerbated by the depressed economic conditions, deteriorating
automobile industry, and high unemployment rates prevalent in the Detroit, Michigan area where
CSB operated.
Evaluation of Supervision
The FDIC and the Michigan Office of Financial and Insurance Regulation (OFIR) examinations
and visitation of CSB identified key risks, including inadequate management and Board oversight,
high concentrations in CRE lending, weaknesses in internal controls and credit underwriting, poor
credit risk management practices, and the adverse changes in the local Michigan economy. In
2008, the FDIC and the OFIR pursued a Memorandum of Understanding (MOU) as a result of
unsatisfactory practices and conditions noted in the March 2008 examination. The FDIC also
issued a Cease and Desist Order (C&D) as a result of the May 2009 examination. In retrospect,
beginning with the 2005 FDIC examination, the lending strategy consisting of higher CRE
concentrations warranted elevated concern. Additionally, regulators may have benefited from an

                                                                                              I-1
                             KPMG LLP is a Delaware limited liability partnership,
                             the U.S. member firm of KPMG International Cooperative
                             (“KPMG International”), a Swiss entity.
on-site visitation in addition to off-site monitoring following the December 2006 State
examination to have greater assurance that the Bank was correcting critical credit administration
weaknesses.
Prompt Corrective Action

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented
applicable PCA provisions of section 38 in a timely manner. CSB was unsuccessful in raising
needed capital, and the Bank was subsequently closed on December 18, 2009.
We conducted our performance audit in accordance with Generally Accepted Government
Auditing Standards (GAGAS). Those standards require that we plan and perform the performance
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

The information included in this report was obtained during our fieldwork, which occurred during
the period from March 2010 through May 2010.

Very truly yours,




                                                                                               I-2
Why We Did The Audit
The FDIC Office of Inspector General (OIG) contracted with KPMG LLP (KPMG) to conduct a
material loss review of CSB.

On December 18, 2009, OFIR closed CSB and named the FDIC as receiver.
On January 20, 2010, the FDIC notified the OIG that CSB’s total assets at closing were
$167.8 million. As of January 29, 2010, the estimated loss to the DIF was $30.65 million. The
OIG was required by section 38(k) of the Federal Deposit Insurance (FDI) Act to conduct a
material loss review of the failure of CSB, and retained KPMG for this purpose.1

The audit objectives were to (1) determine the causes of the financial institution’s failure and
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution,
including implementation of the PCA provisions of section 38.

Background
CSB operated in New Baltimore, Michigan, which is located about 35 miles northeast of Detroit
in Macomb County. During the early 2000s, the CRE market in Macomb County started to
experience high growth. People from neighboring areas started to migrate to this county, which
created a high demand for commercial and residential mortgage real estate loans.

Approximately 70 percent of the population living in Macomb County worked for the top three
automotive companies. In the early 2000s, there were signs of stress in the automobile industry,
and by the mid 2000s, this industry as well as the national economy had begun to falter. By
2008, Detroit and the surrounding areas faced some of the strongest challenges in the country as
the economic outlook for the U.S. deteriorated and unemployment climbed.

CSB was a state non-member bank wholly-owned by Citizens State Bancorp, Inc. (Holding
Company), a one-bank holding company, established in 1922. The Board controlled 12 percent
of the company's stock. CSB operated seven branches, six of which were in Macomb County and
one in St. Clair County.

CSB’s loan portfolio had primarily consisted of 1-4 family residential loans until 2002. As the
banking industry and real estate market changed in the early 2000s, CSB’s Board reassessed its
business strategy and business model. After working with an outside consultant to conduct an
assessment, the Board opted to shift its focus to CRE lending in order to remain competitive in
the marketplace.

The new business strategy coincided with a change in senior management at the Bank. Despite
the changes in leadership, the experience of the preponderance of the Board remained in
1-4 family residential lending. To help grow CRE lending, two senior lenders were hired, and
both were ultimately appointed to the Board. Table 1 illustrates the financial condition of CSB as
of December 31, 2008 and for the four preceding calendar years.

1
  In conducting this performance audit and preparing this report, KPMG relied primarily on information provided by
the FDIC OIG and DSC. Appendix I, Objective, Scope and Methodology, describes in greater detail the procedures
used by KPMG.
                                                                                                               I-3
Table 1: Financial Condition of CSB
Financial Measure                             12/31/08 12/31/07 12/31/06 12/31/05 12/31/04
Total Assets ($000s)                          $199,341 $193,044 $207,978 $199,509 $196,671
Net Loans ($000s)                             $149,985 $153,341 $165,766 $160,513 $135,529
Total Deposits ($000s)                        $174,304 $167,235 $181,933 $173,318 $176,570
FHLB Advances^ ($000s)                         $8,800   $3,000   $3,000   $3,000      $0
Past due ratio*                                7.74%     3.37%    1.51%    0.55%    0.34%
ADC Loans/Total Capital                        107%       61%      90%      82%      92%
CRE Loans/Total Capital                        631%      418%     412%     374%     348%
Total Risk Based Capital/Risk weighted assets  9.11%    12.84%   12.67%   12.92%   12.83%
 Source: Uniform Bank Performance Reports (UBPRs) for CSB.
 ^ It is noted that CSB did not rely on brokered deposits as a funding source.
* Amount includes past due 90+ days and nonaccrual.


Causes of Failure and Material Loss
CSB’s failure can be attributed to (1) inadequate management and Board oversight; (2) a high
concentration in CRE lending; (3) weaknesses in internal controls and questionable credit
underwriting; and (4) poor credit risk management practices. Some of these practices and their
apparent significant impact on the failure of CSB are the subject of ongoing investigative
activities. Management and the Board pursued a business strategy based on a highly concentrated
loan portfolio, with limited experience in CRE lending and without establishing the appropriate
practices to mitigate the corresponding risks. The Bank's financial deterioration was exacerbated
by the depressed economic conditions, deteriorating automobile industry, and high
unemployment rates prevalent in the Detroit, Michigan area where CSB operated.

Management and Board Oversight

Historically, CSB operated with a focus on 1-4 family residential loans. As discussed above,
management shifted the Bank’s emphasis from long-term fixed-rate residential mortgage loans to
higher-yielding CRE loans. The newly appointed Bank President and Chief Executive Officer
(CEO) in 2003 accelerated the shift in Bank strategy initiated by the prior leadership. While the
two senior lenders who played key roles in implementing the strategy had CRE lending
experience, CSB’s management and Board, as a whole, lacked such experience and that was
likely a factor in their inability to properly identify, measure, monitor, control, and mitigate the
growing risks associated with CRE loans. While CSB had engaged in some CRE lending in the
past, its personnel, processes, and technology appear to have been ill-equipped to underwrite and
administer the increase in volume of CRE loans that occurred during the period between 2002
and 2006. The regulators also noted in the Reports of Examination (ROE) apparent violations of
banking laws and contraventions with policy. Additionally, the influence of two senior lenders
on the Board created a risk that the Board’s independence could be compromised.




                                                                                                 I-4
Management and Board Experience

The departure of two senior lenders with CRE experience, in addition to two other loan officers
and one credit analyst, during the time period October 2005 to November 2006, left the Bank
understaffed and lacking proper oversight. When the local real estate market began to deteriorate
in December 2006, management’s inability to successfully manage and control the CRE lending
strategy under more adverse economic conditions became evident.

In the 2006 OFIR ROE, examiners noted that loan loss percentages were rising and trends in past
due and adverse classifications were negative. Examiners stated the absence of intervention by
the Board was attributable to a lack of expertise in the areas of credit risk administration and
underwriting. Areas of weaknesses noted included understaffing; lack of knowledge of banking
laws and regulations; and lack of prompt identification, action, and appropriate resolution of
problem credits.

In the 2008 FDIC ROE, it was noted that management and Board oversight needed improvement
given the deterioration of the Michigan economy. Several of the adversely classified assets noted
during the examination resulted from previous inadequate oversight of the lending function and
poor underwriting practices and credit administration by the former lending staff.

In the May 2009 Joint ROE, the examiners noted that the Bank's Management rating of
“4” reflected the unsatisfactory condition of the Bank. The rating was driven by the Bank’s poor
asset quality, negative earnings, and insufficient capital level. Examiners continued to note that
poor supervision of lending staff and weak credit administration during the Bank’s period of
growth in CRE lending appears to have been a contributing factor in the Bank’s ultimate failure.

Apparent Violations and Contraventions of Policy

The regulators also noted in the ROEs apparent violations of banking laws and contraventions of
policy throughout the examination period of 2004-2009. The issues noted are further examples of
CSB’s weak management and Board oversight that contributed to the failure of the Bank. The
following are examples of the issues identified:

       •   Contraventions of Joint Agency Policy Statement on Interest Rate Risk.
       •   Violation of Section 4205 of Michigan’s Banking Code of 1999.
       •   Violation of Regulation O regarding approval of insider loans.
       •   Contravention of policy with FDIC Rules and Regulations, Part 365, Appendix A.
       •   Violation of FDIC Rules and Regulations, Part 323.3(a).

Board Independence

The influence of two senior lenders on the Board created a risk that the Board’s independence
could be compromised. Their appointment to the Board created a situation where the senior
lenders may have been able to influence approvals of loans that they underwrote. Their potential
influence created a control weakness in the management and Board oversight process that could
have been intentionally or unintentionally exploited.



                                                                                               I-5
Concentration in CRE Lending

A high concentration in CRE lending played a significant role in the quality and composition of
CSB’s loan assets and the Bank’s growth. The 2004 OFIR ROE noted that the new management
team was putting in place a new philosophy and strategy shift to increase the rate of growth,
particularly in the commercial loan portfolio. Figure 1 summarizes CSB’s CRE concentrations
from 2004 to 2008. 2 As illustrated, CSB’s CRE loans as a percentage of total capital increased
each year from 2004 to 2008, particularly in the non-farm non-residential category. The
2008 FDIC ROE noted that the Bank monitored concentrations monthly by industry code;
however, no stress testing or modeling of concentrations was performed.

Figure 1: CSB’s CRE Loans as a Percentage of Total Capital

     700.00%

     600.00%

     500.00%

     400.00%

     300.00%

     200.00%

     100.00%

        0.00%
                      2004          2005           2006           2007          2008

                             Total CRE     Non-Farm Non-Residential         ADC

    Source: UBPR for CSB, December 31, 2008.
    Note: Increases in 2008 are due primarily to a decline in capital and not increases in loan volume.

As a result of the new lending strategy, by 2005, the loan portfolio mix had changed and was
heavily weighted in CRE. The August 2005 FDIC ROE noted that the Bank’s 1-4 family
residential loan concentration had decreased over the prior 3-year period from 47 percent of the
average gross loans to 28 percent, while the real estate portfolio during the same time period
grew to 52 percent of the gross loans from 33 percent. Figure 2 summarizes CSB’s distribution
of total loans as of December 2008, and for the 4 preceding calendar years.




2
  CRE concentrations in Figure 1 include owner-occupied CRE. This also applies to Figures 2, 3, and 4 within this
report.
                                                                                                               I-6
Figure 2: Summary of CSB’s Loan Mix as a Percentage of Total Loans

 60.00%
 50.00%
 40.00%
 30.00%
 20.00%
 10.00%
  0.00%
               2004             2005               2006          2007                2008

                   Construction & Development (ADC)   CRE - Nonfarm/Nonresidential
                   1-4 Family Residential             Home Equity Loans
                   Multifamily Real Estate Loans      Non-Real Estate Loans

 Source: UBPR for CSB, December 31, 2008.

The May 2009 Joint ROE noted that CRE and ADC loans continued to pose a significant degree
of risk to capital. These loan categories had sustained large losses due to the weakened economic
climate in Michigan, with CRE and ADC loans representing 79 percent of classified loans and
95 percent of loans classified as a loss at the 2009 examination.

The Board and management at CSB chose to pursue a lending strategy that consisted of high
concentrations of CRE loans and failed to mitigate the risk associated with CRE lending. These
weaknesses, combined with the failure to recognize and respond in a timely manner to the
changing economic conditions in the real estate market that they were lending in, left the Bank
vulnerable to significant losses when the Michigan market turned downward.

Internal Controls and Credit Underwriting

Internal control weaknesses and lax underwriting practices, particularly with respect to CRE
loans, contributed to the loan quality problems that developed when the Bank’s real estate
lending markets started to deteriorate in 2006.

The 2004 OFIR ROE noted that operational risk was moderate to high and the risk management
controls were weak. There was no evidence that the Audit Committee had met for 13 months
since January 7, 2003, to review the internal audit reports. Findings at the 2004 examination also
revealed a number of internal operating deficiencies, raising concerns about Bank controls
associated with internal audit and compliance with banking statutes and regulations.

An Internal Audit Summary Report issued prior to 2006 revealed that internal controls were
extremely lax. The report indicated that there was inadequate segregation of duties in many
areas, as loan officers were able to post transactions directly to the general ledger.
Reconcilements were not performed on all general ledger accounts, and suspense account
transactions were not reviewed on a regular basis. The report also noted an incident involving
                                                                                               I-7
unsound banking practices by a loan officer who was allegedly withdrawing money against a
customer’s account for personal use, further evidencing the lack of internal controls and
segregation of duties.

In a 2008 review of the commercial loans (including loans being reviewed for renewal or
foreclosure), management identified certain questionable lending practices used by former
lending staff. During this review, it was discovered that the former lending staff had engaged in
lending practices that were apparently not known by the Board, and included (1) changing loan
terms and conditions subsequent to Board approval; (2) failing to properly perfect the Bank’s
security interest in loans that relied on collateral as a secondary source of repayment;
(3) originating loans that were both unusual in nature and repayment source where management
and the Board lacked requisite experience to understand and mitigate underlying credit risk; and
(4) commercial loans to borrowers who lacked experience in the businesses they were attempting
to operate. Some of these practices and their apparent significant impact on the failure of CSB
are the subject of ongoing investigative activities.

The weaknesses in internal controls and credit underwriting affected overall asset quality and led
to increases in charge-offs and provisions, negatively affected earnings, and contributed to the
failure of the Bank.

Credit Risk Management Practices

Examiners expressed numerous concerns with the Bank’s credit risk management practices,
including identification of problem loans, the loan grading system, and the Allowance for Loan
and Lease Loss (ALLL) methodology – important aspects of the credit administration function.
Weaknesses in these areas contributed to the untimely detection of asset quality problems that
developed when the real estate markets the Bank was exposed to began to deteriorate in 2006.
Examiners noted in the 2006 OFIR ROE that the depressed state and local economy may have
been a factor in the Bank’s negative asset quality trends, but that weak credit administration
practices contributed to the majority of the problems.

Identification of Problem Loans and Loan Grading Methodology

Examiners cited issues regarding CSB’s identification of deteriorating credits in an untimely
manner and the Bank’s loan grading process.

The December 2006 OFIR ROE noted that CSB’s loan grading was not adequate. The criterion
did not appear to be sufficiently forward-looking and did not allow for adequate differentiation
between stable and deteriorating credit relationships. Failure to properly grade loans and
promptly identify deteriorating credits were indications that the credit rating system CSB used
was inadequate to monitor risk. Examiners identified numerous loans that were internally rated
as acceptable despite structural deficiencies or lack of documented cash flow typically associated
with credits rated “watch” or worse. Furthermore, examiners noted the Bank’s “borderline pass”
rating included loan characteristics, such as outdated financial statements and negative trends,
which are typical of industry “watch” ratings.




                                                                                               I-8
ALLL Methodology

Between 2004 and 2009, examiners repeatedly noted concerns related to the Bank’s ALLL
methodology. Examiners at the 2004 examination recommended that enhancements be made to
the ALLL reserve analysis procedures and referred the Bank to FIL-63-2001 titled Interagency
Policy Statement on Allowance for Loan and Lease Losses Methodologies and Documentation
for Banks and Savings Associations.

Examiners noted during the December 2006 examination that management’s ALLL analysis was
inadequate due to a failure to comprehensively calculate impairment and support factors used to
estimate probable loss in the loan portfolio. Management’s failure to identify all impaired loans
created a shortfall in the ALLL of at least $900,000. Examiners recommended that management
enhance the Bank's ALLL methodology to incorporate (1) the results of internal loan grading,
(2) the results of impairment analysis for individual credits, (3) environmental factors to
recognize the current economy, and (4) levels and trends of delinquencies and problem assets.
Management responded that, as of February 1, 2007, a revised ALLL model had been developed
that incorporated two separate methodologies for accounting and reserving for impaired loans.
Management also indicated the Loan Policy Manual had been revised to define impaired loans
and watch credits under review in the new ALLL model.

At the March 2008 examination, the Bank’s ALLL was determined to have an estimated
$300,000 shortfall based on increased loss estimates identified at the examination. The
May 2009 examination reported that additional provisions to the ALLL were necessary to
address the increasing risk in the loan portfolio. Examiners recommended that additional
provisions of $5.8 million be reflected as of June 30, 2009; this included $2.2 million that
management internally identified as a shortfall as of April 30, 2009.

As a result of the weaknesses in the loan grading system, CSB had ongoing difficulties
calculating an allowance expense commensurate with the underlying risks in the loan portfolio.
The underfunded ALLL resulted in an overstatement of reported capital. When loan ratings were
downgraded and the ALLL replenished, the capital protection of the Bank turned out to be less
robust than what was represented prior to the modification.

The FDIC’s Supervision of Citizens State Bank
The FDIC and OFIR examinations and visitation of CSB identified key risks, including
inadequate management and Board oversight, high concentrations in CRE lending, weaknesses
in internal controls and credit underwriting, poor credit risk management practices, and the
adverse changes in the local Michigan economy. In 2008, the FDIC and OFIR pursued an MOU
as a result of unsatisfactory practices and conditions noted in the March 2008 examination. The
FDIC also issued a C&D as a result of the May 2009 examination. In retrospect, beginning with
the 2005 FDIC examination, the lending strategy consisting of higher CRE concentrations
warranted elevated concern. Additionally, regulators may have benefited from an on-site
visitation in addition to off-site monitoring following the December 2006 State examination to
have greater assurance that the Bank was correcting critical credit administration weaknesses.




                                                                                              I-9
Supervisory History

Between 2004 and 2009, the FDIC and the OFIR conducted one visitation and five risk
management examinations of CSB. Until 2008, CSB’s CAMELS composite rating was a “1” or
“2”. These ratings suggest that the Bank presented little or no supervisory concern from a safety
and soundness perspective; however, the Bank’s financial condition appears to have deteriorated
rapidly during this time. As a result of the March 2008 examination, CSB became subject to an
MOU issued on July 8, 2008. Subsequently, a C&D was issued on September 22, 2009. Table 2
summarizes CSB’s examination history during the 5 years leading up to the closure of the Bank.

Table 2: CSB’s Examination History from 2004 to 2009
  Examination          Examination             On-Site             Supervisory         Informal or Formal
     Date                 Type               Supervisory            Ratings*             Action** Taken
                                                Effort               (UFIRS)
   02/09/2004          Examination               State               212222/2                None
   08/29/2005          Examination               FDIC                111211/1                None
   01/05/2006           Visitation               FDIC               No Ratings               None
   12/11/2006          Examination               State               132211/2                None
   03/03/2008          Examination               FDIC                343322/3           MOU July 8, 2008
                                                                                             C&D
   05/11/2009          Examination               Joint               554533/5
                                                                                        October 25, 2009
Source: FDIC Supervisory History for CSB.
*Financial institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS) to
evaluate a bank’s performance in six components represented by the CAMELS acronym: Capital adequacy, Asset
quality, Management practices, Earnings performance, Liquidity position, and Sensitivity to market risk. Each
component, and an overall composite score, is assigned a rating of “1” through “5”, with “1” having the least
regulatory concern and “5” having the greatest concern.
**Informal supervisory actions often take the form of Bank Board Resolutions or MOUs. Formal enforcement actions
often take the form of PCAs or C&Ds, but under severe circumstances can also take the form of insurance
termination proceedings.

Evaluation of Supervisory Action

The FDIC’s and the OFIR’s examinations and visitation of CSB identified key risks including
inadequate management and Board oversight, high concentrations in CRE lending, weaknesses
in internal control and credit underwriting, and poor risk management practices, all of which
eventually contributed to the Bank’s failure. The examinations were conducted according to the
statutory schedule and off-site reviews were carried out according to established procedures.

A close review of the examination history reveals that, beginning with the 2005 FDIC
examination, the lending strategy consisting of higher CRE concentrations warranted elevated
concern. In 2005, CSB received an overall rating of “1” based on the information presented at
the time. The Division of Supervision and Consumer Protection (DSC) Risk Management
Manual of Examination Policies states that “financial institutions with a ‘1’ composite rating are:
(1) sound in every respect, (2) the most capable of withstanding the vagaries of business
conditions, and (3) resistant to outside influences such as economic instability in their trade area.
As a result, these financial institutions exhibit the strongest performance and risk management
practices relative to the institution’s size, complexity, and risk profile, and give no cause for
supervisory concern.”



                                                                                                           I-10
The FDIC’s supervisory approach to CSB was generally consistent with practices in place at the
time. In retrospect, however, the 2005 FDIC examination appears to have represented an
opportunity for examiners to incorporate forward-looking factors into the assessment of CSB.
Specifically, greater supervisory emphasis on the observations listed below may have influenced
CSB’s management and Board to take corrective action sooner and improve its risk management
and oversight to accommodate the institution’s changing risk profile:

       • CRE lending as a percent of average gross loans had grown to 52 percent in 2005
         from 33 percent in 2002. Residential lending as a percent of average gross loans had
         shifted to 28 percent from 47 percent. This lending strategy was inherently more risky
         than the 1-4 residential lending historically pursued by the Bank.
       • With the exception of the two senior lending officers appointed to the Board, the
         composition of the Board and management did not change in conjunction with the
         new business strategy to manage the increased level of risk. As discussed previously,
         there appears to have been a reliance on the two senior lenders to manage the
         identification, underwriting, approval, and monitoring of the CRE portfolio that
         created a potential weakness in the oversight of lending.

In 2008, the FDIC and the OFIR pursued an informal action as a result of unsatisfactory
practices and conditions noted in the March 2008 examination. CSB entered into an MOU
effective July 8, 2008. The MOU addressed ALLL levels, classified assets, accounting,
administering and disposing of other real estate, the profit plan, and capital ratios, among other
matters.

The FDIC instituted a formal supervisory action during the May 2009 examination in the form of
a C&D, which revealed further financial deterioration and the failure of Bank management to
fully comply with all provisions of the MOU agreed to during the 2008 examination. In response
to the inadequate capital levels and other concerns from the May 2009 examination, the FDIC
and the OFIR pursued a C&D, which was signed on September 22, 2009 and became effective
October 25, 2009. The C&D stipulated, among other things, an increase in the capital level,
reduction of delinquencies and classified assets, prohibition of additional loans and classified
borrowers, a liquidity plan and budget, and the addition of a chief credit officer and a chief
financial officer.

Supervisory Response Related to Management and Board Oversight

The DSC Risk Management Manual of Examination Policies states that “the quality of
management is often the single most important element in the successful operation of an insured
institution, and is usually the factor that is most indicative of how well risk is identified,
measured, monitored, and controlled.” Examiners assigned a “1” or a “2” rating to the
Management component from 2004 through 2006, and downgraded this component to a “3” at
the March 2008 examination. The following factors indicate that a stronger supervisory response
may have been warranted prior to the 2008 MOU:

   •   A shift in strategy to a concentration in CRE lending from 1-4 family residential lending
       and lack of management and Board experience in CRE lending.


                                                                                              I-11
   •   The risk of compromised Board independence resulting from two senior lenders’
       appointments to the Board.
   •   Apparent violations of banking laws and contraventions to policy.
   •   Weaknesses in internal controls and credit underwriting.
   •   Poor credit risk management practices.

Based on the observations and issues noted above, such a response would have been reasonable
in light of the following DSC Risk Management Manual of Examination Policies evaluation
factors for the Management component rating: (1) the level and quality of oversight and support
of all the institution activities by the board of directors and management, (2) the ability of the
board of directors and management, in their respective roles, to plan for, and respond to, risks
that may arise from changing business conditions or the initiation of new activities or products,
(3) compliance with laws and regulations, and (4) responsiveness to recommendations from
auditors and supervisory authorities.

Supervisory Response Related to CRE Lending

Examiners identified problems with CSB’s loan concentrations at various points in time between
the 2004 and 2009 examinations. Table 3 summarizes the examiner comments regarding the
CRE concentrations from 2004 through 2009.

Table 3: Examiners’ Comments Related to CSB’s CRE Concentrations from
         2004 through 2009
                                                     CRE
 Examination                       Asset
                  Examination                   Concentration
   Date and                        Quality
                     as of                           as a               Examiner Comments
  Regulatory                     Component
                     Date                       Percentage of
   Agency                          Rating
                                                 Total Capital
  02/09/2004        9/30/2003          1          320 percent    Examiners noted a new strategy at
     State                                                       the Bank that included increased
                                                                 growth expectation, particularly in
                                                                 the commercial loan portfolio.
  08/29/2005        6/30/2005          1          405 percent    Examiners noted that the loan
    FDIC                                                         concentration in CRE had grown
                                                                 from 33 percent to 52 percent of
                                                                 gross loans since year-end 2002.
  12/11/2006        9/30/2006          3          380 percent    Examiners did not comment on the
     State                                                       CRE concentration level at this
                                                                 examination.
  03/03/2008       12/31/2007          4          418 percent    In preparation for the 2008 exam,
    FDIC                                                         examiners noted in the pre-
                                                                 examination planning (PEP)
                                                                 memorandum that a CRE
                                                                 concentration was identified, with
                                                                 CRE loans exceeding the
                                                                 300 percent threshold of total Risk-
                                                                 Based Capital at 409 percent.
                                                                 Examiners also noted that the Bank
                                                                 monitors concentrations based on
                                                                 industry codes monthly. No stress

                                                                                                I-12
                                                                       CRE
    Examination                                Asset
                         Examination                              Concentration
      Date and                                 Quality
                            as of                                      as a                     Examiner Comments
     Regulatory                              Component
                            Date                                  Percentage of
      Agency                                   Rating
                                                                   Total Capital
                                                                                       testing or modeling of
                                                                                       concentrations was performed and
                                                                                       thus management did not have a
                                                                                       contingency plan for such.
    05/11/2009            3/31/2009                 5              634 percent         The C&D issued as a result of this
       Joint                                                                           examination required CSB to
                                                                                       formulate and implement a plan to
                                                                                       reduce the loan concentrations of
                                                                                       credit.
Source: ROEs and UBPRs for CSB.
Note: Ratio increases in 2009 are primarily due to a decline in capital and not an increase in loan volume.

Figure 3 below shows CSB’s CRE concentration levels as a percentage of Total Capital
compared to its peer group3 at the end of each calendar year from 2004 to 2008. As represented,
CSB’s concentration level exceeded 300 percent since 2004.

Figure 3: CSB’s CRE Concentration as a Percentage of Total Capital Compared to Peer
          Group

              700.00%

              600.00%

              500.00%


              400.00%
                                                                                                         CSB
                                                                                                         Peer Group
              300.00%

              200.00%

              100.00%


                 0.00%
                              2004          2005           2006          2007          2008


Source: UBPRs for CSB.
Note: The increase in concentration in 2008 was primarily due to a substantial decrease in Citizen State Bank’s capital level.


Figure 4 illustrates the composition and growth of CSB’s loan portfolio from calendar years
ended 2002 to 2008. From December 2003 through December 2006, CSB’s CRE portfolio grew
from $54 million to $94 million, respectively, an increase of 74 percent.



3
 CSB’s peer group included all commercial banks having assets between $100 million and $300 million, with 3 or
more full service banking offices and located in a metropolitan statistical area.
                                                                                                                                 I-13
Figure 4: Composition and Growth of CSB’s Loan Portfolio



                                              $180            Commercial and Other
                                                                                                          $166
                                                              Other CRE Loans                   $161
                                                              ADC Loans                                              $153
                                              $160                                                                              $150
                                                                                     $135
                                                                                                                                          $132
                                              $140
          Gross Loans and Leases (Millions)




                                                                       $114                               $72
                                                                                               $77                   $60        $52
                                              $120        $103
                                                                                                                                            $48
                                                                                   $67
                                              $100

                                                                      $60
                                              $80
                                                        $70
                                              $60                                                         $73                   $81
                                                                                                                     $79
                                                                                               $65
                                                                                                                                            $74
                                                                                   $50
                                              $40
                                                                      $42

                                              $20       $29
                                                                                   $18         $18        $21                   $17
                                                                      $12                                            $14                    $10
                                                         $4
                                               $0
                                                     Dec-2002     Dec-2003      Dec-2004    Dec-2005   Dec-2006   Dec-2007   Dec-2008   Sept-2009
                                                                                               Period Ended


         Source: Call Reports for CSB.


Based on the information in Figures 3 and 4, CSB’s concentration in CRE lending appears to
have made the Bank particularly vulnerable to a downturn in the real estate market. As
previously mentioned, this was a significant factor contributing to the Bank’s failure in 2009.
CSB’s CRE concentration levels would appear to have warranted closer scrutiny as did
management’s ability to maintain the portfolio in a manner consistent with the safe and sound
operation of the Bank.

Supervisory Response Related to Internal Controls and Credit Underwriting

In the 2004 examination, the examiners recommended improvement in the management of
operational risk and proper follow-up of internal audit findings. In the 2004 and 2005 ROEs,
examiners did not criticize CSB’s internal control and credit underwriting weaknesses.

As previously discussed in the Cause of Failure section, an Internal Audit Report issued prior to
2006 revealed weaknesses in internal controls and an incident involving unsound business
practices. In the 2006 OFIR ROE, examiners recommended that management review weaknesses
in credit underwriting; however, there was not any evidence that examiners took into account the
issues noted in the Internal Audit Report in assessing the internal controls at the Bank.

During the 2008 examination, the examiners recommended that the Bank’s Loan Policy be
revised to incorporate the Bank’s current practices with regard to unsecured lending,
participation loans, capitalization of interest, usage of loan extensions, and Phase I
environmental inspection requirements.

Taking into consideration the operational and internal control weaknesses noted during the
2004 and 2006 examinations, it appears that the examiners did not adequately follow up to

                                                                                                                                                    I-14
ensure the issues were remediated and recommendations implemented by the Bank. As a result,
examiners may have missed an opportunity to recommend or enforce corrective action before
economic conditions worsened.

Supervisory Response Related to Credit Risk Management Practices

Loan Grading and Problem Loans

The 2006 OFIR ROE noted observations and recommendations as follows:

       •   Observations
              • Inadequacies in the Bank’s loan grading methodology. The examiner review of
                 the rating methodology resulted in loan ratings that were not consistent with
                 the Bank’s internal loan rating, raising questions concerning the validity of the
                 Bank’s assigned ratings and thus its ability to properly grade credit and
                 promptly identify problem credits.
              • Noncompliance with the Bank’s Loan Policy directives regarding delinquency
                 status and corresponding internal loan grades and accrual status.
              • Weaknesses in the timely identification of delinquent loans and transfer of
                 these particular credits to the collections department during the
                 2006 examination.

       •   Recommendations
              • Management review of the loan grading system and incorporate qualitative
                factors into the loan grading system such as debt service coverage, leverage,
                collateral value, loan to value, and cash flow.
              • Management review of credit administration practices for consistency with
                internal policy requirements and report any inconsistencies to executive
                management and the Board.
              • Management review of the capability of the Bank's tickler system and
                corresponding procedures to more promptly identify maturing credits in
                sufficient time.
              • Management revision of the policy guidelines to include a time frame and
                detail criteria regarding reassignment of delinquent credits from a loan officer
                to the supervision of collections personnel.

As a result of the critical credit administration weaknesses identified at the 2006 examination,
OFIR regulators noted that regulatory follow-up no later than 6 months after the exit meeting
date of January 10, 2007 was warranted. We found no documentation supporting a follow-up by
OFIR officials in response to the 2006 examination recommendation. However, DSC officials
indicated that an FDIC Relationship Manager contacted the President of CSB via telephone in




                                                                                              I-15
February 2007 and June 2007. 4 The June 2007 contact addressed the observations noted in the
December 2006 examination. Further, as discussed later in this report, although subsequent to the
6-month timeframe recommended by OFIR, the FDIC also conducted off-site monitoring of CSB
on two occasions prior to the March 2008 examination.

In addition to such off-site efforts, DSC’s Risk Management Manual of Examination Policies
indicates a visitation may be used to determine progress in correcting deficiencies noted at a
previous examination. In that regard, given the significance of the 2006 examination
observations and recommendations in this area, it appears that increased regulatory attention may
have been warranted in the form of a visitation. A visitation may have provided greater assurance
that the CSB Board and management were adequately addressing regulatory concerns because it
would have (1) involved reviewing documents to determine the extent to which corrective
actions have been taken; and (2) prompted a memorandum to Bank management and the Board
to communicate findings, including any concerns regarding lack of progress.

The MOU issued in July 2008 included the following provisions related to the deteriorating asset
quality:

        • Within 60 days from the date of the Memorandum, the Bank shall formulate, adopt
          and submit to the Regional Director and the Acting Chief Deputy Commissioner for
          review and comment a written plan of action to lessen the Bank's risk position in each
          asset which was classified "Substandard" and "Doubtful" in the Report, and which
          aggregated $500,000 or more. Such plan shall include, but not be limited to, the
          following: a) dollar levels to which the Bank will strive to reduce each line of credit
          within 6 and 12 months from the effective date of this Memorandum; and
          b) provisions for the submission of monthly written progress reports to the Bank's
          board of directors for review and notation in the board of director's minutes.
        • 60 days from the date of the Memorandum, the Bank shall initiate steps to correct the
          deficiencies in those loans listed as Special Mention in the 2008 FDIC ROE.

The C&D issued in October 2009 required the Bank to adhere to the following requirements in
response to the deteriorating asset quality:

        •   Within 30 days from the effective date of the order, adopt, implement, and adhere to,
            a written plan to reduce the Bank's risk position in each asset in excess of $250,000,
            which was more than 90 days delinquent or classified "Substandard" or "Doubtful" in
            the 2009 Joint ROE.

ALLL Methodology

The 2004 OFIR ROE noted that management adequately identified problem credits and provided
for loss exposure in the Bank’s ALLL; however, examiners did recommend that certain

4
  As part of the Relationship Manager Program established by the FDIC, each FDIC-supervised institution has a
designated Relationship Manger. The objectives of the program include: to improve communication with the
institution, to increase flexibility for risk-focused supervision, and to provide a comprehensive Report of
Examination that includes all supervisory ratings and addresses material findings in all areas.

                                                                                                                I-16
enhancements be made to the reserve analysis procedures and provided the Bank with the
Interagency Policy Statement on Allowance for Loan and Lease Losses, which provides
definitive guidance related to ALLL levels.

At the August 2005 examination, the FDIC recommended that the Bank document ALLL
methodology procedures and guidelines in policy format, including which impairment
measurement methods to be generally used. Additionally, the examiners recommended that the
Bank implement guidelines for assessing the analysis aspect of the ALLL methodology as
prescribed in the Policy Statement on Allowance for Loan and Lease Losses Methodologies and
Documentation for Banks and Savings Institutions dated July 2, 2001.

The 2006 OFIR ROE cited inadequacies in CSB’s ALLL analysis that resulted in a
$900,000 shortfall in the ALLL provision. The examiners recommended that management
enhance the Bank's ALLL methodology to incorporate the results of internal loan grading and
reflect the results of impairment analysis for individual credits, as well as incorporate
environmental factors to recognize the current economy, level and trend of delinquencies, and
trend of problem assets.

The 2008 FDIC ROE noted a $300,000 shortfall in the ALLL provision. While the shortfall may
have been attributed to the timing of developments in the first quarter of 2008 that were not
reflected in the Bank’s ALLL calculation, examiners provided additional recommendations to
help the Bank achieve more timely recognition of potential ALLL shortfalls and achieve better
alignment with outstanding ALLL guidance.

The C&D issued in October 2009 required the Board to review the adequacy of the Bank's
ALLL, provide for an adequate ALLL, and accurately report the same. The minutes of the Board
meeting were to outline the findings of the review, the recommended amount of increase in the
ALLL, and the basis for determining the amount of ALLL provided. In making these
determinations, the Board considered the Federal Financial Institutions Examination Council
(FFIEC) Instructions for the Reports of Condition and Income and any analysis of the Bank's
ALLL provided by the FDIC or OFIR.

Off-site Reviews

The Case Manager Procedures Manual states that the “off-site review program is designed to
identify emerging supervisory concerns and potential problems so that supervisory strategies can
be adjusted accordingly.” The FDIC generates an Off-site Review List (ORL) each quarter and
performs off-site reviews for each bank that appears on the list. Off-site reviews must be
completed and approved 3½ months after each Call Report date5. This generally provides
45 days to complete the off-site reviews once Call Report Data is finalized. In the case of CSB,
off-site review did not play a significant role in the supervisory approach to the institution.

One of the measures used to produce the ORL is the Statistical CAMELS Off-site Rating
(SCOR) model, which uses statistical techniques to measure the likelihood that an institution will
receive a rating downgrade at the next examination. The output of the SCOR model is derived

5
    The FDIC also utilizes other off-site monitoring tools in addition to the ORL.
                                                                                              I-17
from historical examination results as well as Call Reports. Given the nature of some of the early
issues identified at CSB relating to loan grading and ALLL methodology, the Call Report data
used for the SCOR model may not have accurately represented certain aspects of the Bank’s
financial condition. For example, the 2006 State Examination noted that the Bank’s ALLL
analysis was inadequate due to a failure to comprehensively calculate impairment and support
factors used to estimate probable loss in the loan portfolio. Such loan administration would have
masked the actual ALLL and condition of the loan portfolio and negatively impacted the
effectiveness of examination planning and the overall supervisory approach.

CSB was identified for off-site review twice in 2007 and once in 2008. The reviews were
conducted in accordance with policy and, as such, focused on numerical measures of risk with
little or no emphasis on unsafe or unsound practices, such as the loan grading and ALLL issues
previously mentioned. The results of the off-site review did not significantly change the FDIC’s
approach to supervising and monitoring the Bank. Table 4 below provides a summary of off-site
reviews of CSB.
Table 4: Summary of Off-site reviews of CSB
     Date         Risk Level       Risk Trend       SCOR*       REST**                            Comments
     9/30/2007    Medium          Increasing             2.78         3.84   Asset quality was less than satisfactory with an
                                                                             Adversely Classified Items Coverage Ratio of 20.79
                                                                             percent as of the exam date. Management indicated that
                                                                             the absence of a senior lender, understaffing in the
                                                                             lending area, and problems specifically associated with
                                                                             two former lenders have contributed to the current asset
                                                                             quality situation. Given the higher risk loan portfolio
                                                                             and a declining trend in profitability, the off-site
                                                                             reviewer noted that continued quarterly monitoring was
                                                                             warranted.
 12/31/2007***    Medium          Increasing             3.01         3.85   The potential downgrades on SCOR included Asset
                                                                             Quality (43 percent), Management (74 percent), and
                                                                             Earnings (84 percent). Adversely classified assets were
                                                                             78 percent of T1 Capital + ALLL, up from 20 percent
                                                                             at the 2006 State examination. The off-site reviewer
                                                                             noted that the Bank would be subject to some type of
                                                                             enforcement action and monitored quarterly.
     3/31/2008    Medium          Increasing             3.85   n/a          The potential downgrades on SCOR included Capital
                                                                             (82 percent), Asset Quality (90 percent), Management
                                                                             (91 percent), and Earnings (99 percent) At year-end
                                                                             2007, the ROA declined to 0.06 percent after
                                                                             adjustments for provisions (loan & lease losses) and
                                                                             pension-related expenses. Given the Bank's overall
                                                                             deteriorating condition, especially in the areas of asset
                                                                             quality and profitability, the off-site reviewer noted that
                                                                             continued quarterly monitoring was warranted and the
                                                                             Bank would remain on the normal exam schedule.
Source: Off–site review sheets for CSB.
* - SCOR is a financial model that uses statistical techniques, off-site data, and historical examination results to
assign an off-site CAMELS rating and to measure the likelihood that an institution will receive a CAMELS downgrade
at the next examination. For “1” and “2” rated institutions, SCOR assigns a probability of downgrade to a “3” or worse.
For 3-rated institutions, SCOR assigns a probability of downgrade to “4” or “5”. For “4” rated institutions, SCOR
assigns a probability of downgrade to “5”.
**- Real Estate Stress Test (REST) scores are based on a simulation of what would happen in a real estate crisis,
and are considered high when “3.5” or higher.
*** - OSR noted that on-site examination was in process during completion of OSR. The on-site examination was not
triggered by the OSR.


                                                                                                                         I-18
Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least possible
long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations implements the
requirements of PCA by establishing a framework of restrictions and mandatory supervisory
actions that are triggered by an institution’s capital levels. Based on the supervisory actions
taken, the FDIC properly implemented applicable PCA provisions of section 38. CSB was
unsuccessful in raising needed capital, and the Bank was subsequently closed on
December 18, 2009.

Table 5 details CSB’s capital levels, PCA category, and actions taken at the various
examinations since 2004.

Table 5: Summary of CSB’s PCA Capitalization Categories
     Examination Date            Well             5/11/09          3/3/08      12/11/06       8/29/05        2/9/04
                              Capitalized
         As of Date           Threshold*          3/31/09        12/31/07       9/30/06       6/30/05       9/30/03
   Total Risk Based Capital
                                10.00%             4.68            13.04         12.45         12.12         11.35
            Ratio
   Total Tier 1 Risk Based
                                 6.00%             3.42            12.14         11.41         11.31         10.48
         Capital Ratio
   Tier 1 Leverage Capital
                                 5.00%             2.93            10.50         10.00          9.99          7.58
            Ratio
                                               Significantly       Well          Well          Well          Well
      Capital Category
                                              Undercapitalized   Capitalized   Capitalized   Capitalized   Capitalized
        Action Taken                               C&D             MOU           None          None          None
Source: ROEs and DSC Supervisory Documentation.
* Minimum capital requirements to be considered Well Capitalized for PCA purposes.

On March 13, 2009, the FDIC issued a PCA letter notifying the Bank that its capital category for
purposes of PCA had fallen within the Adequately Capitalized capital category based on the
preliminary analysis of the December 31, 2008 Call Report. In accordance with PCA
requirements, the FDIC recommended in the letter that the Bank review the restrictions
concerning brokered deposits that apply to adequately capitalized institutions found in
Section 29 of the FDI Act and Section 337.6 of the FDIC Rules and Regulations. We noted that
CSB did not rely on brokered deposits as a funding source.

On August 6, 2009, the FDIC issued a PCA letter notifying the Bank that its capital category for
purposes of PCA had fallen within the Significantly Undercapitalized capital category based on
the analysis of the June 30, 2009 Call Report. The FDIC notified management in the letter that
the Bank became subject to the mandatory requirements of Section 38 of the FDI Act, including
the submission of a capital restoration plan and restrictions on asset growth, acquisitions, new
activities, new branches, payment of dividends or making any other capital distribution,
management fees, or senior executive compensation.

On October 8, 2009, the FDIC issued a PCA letter notifying the Bank that its capital category for
purposes of PCA had fallen within the Critically Undercapitalized capital category based on the
analysis of financial information the Bank submitted on October 2, 2009. The FDIC noted in the

                                                                                                                I-19
letter that the Bank became subject to the mandatory requirements of Section 38 of the FDI Act,
including the submission of a capital restoration plan and restrictions on asset growth,
acquisitions, new activities, new branches, payment of dividends or making any other capital
distribution, management fees, or senior executive compensation.

The FDIC noted that the Bank would be placed in receivership by December 31, 2009 unless it
was determined that a different action would better carry out the purpose of Section 38.
Additionally, the letter noted that the Bank was required to obtain written approval before
engaging in any of the following activities:

       (1) Entering into any material transaction other than in the usual course of business,
           including any investment, expansion, acquisition, sale of assets, or other similar
           action with respect to which the depository institution is required to provide notice to
           the appropriate Federal banking agency;
       (2) Extending any credit for any highly leveraged transaction as defined in Part 325 of
           the FDIC's regulations;
       (3) Amending the institution's charter or bylaws, except to the extent necessary to carry
           out any other requirement of any law, regulation, or order;
       (4) Making any change in accounting methods;
       (5) Engaging in any covered transaction (as defined in section 23A(b) of the Federal
           Reserve Act (12 U.S.C. 371c(b));
       (6) Paying excessive compensation or bonuses;
       (7) Paying interest on new or renewed liabilities at a rate that would increase the
           institution's weighted average cost of funds to a level significantly exceeding the
           prevailing rates of interest on insured deposits in the institution's normal market
           areas; or
       (8) Making any principal or interest payment on subordinated debt beginning 60 days
           after becoming Critically Undercapitalized.

CSB submitted the required capital restoration plan on August 31, 2009. On September 11, 2009,
the FDIC sent CSB a letter informing the Bank that the capital restoration plan was not
acceptable and was rejected due to significant deficiencies. Some of the deficiencies included,
but were not limited to, the following:

       •   No information was provided to support that there are parties interested in purchasing
           the Holding Company stock or that a merger partner could be found;
       •   Omission of financial projections including pro forma statements over the life of the
           plan;
       •   Omission of interim target capital levels;
       •   The plan did not provide an analysis of the effect of the capital plan on the risk
           profile, particularly in light of any sale of liquid assets or branches;
       •   The plan did not include an assessment of the likelihood of success and an
           explanation of why particular strategies were chosen over alternatives;
       •   The plan did not discuss how actions will affect credit risk, funding risk, and interest
           rate risk; and
       •   The plan did not reflect return to an adequate capitalization within a reasonable time
           period.

                                                                                               I-20
On October 13, 2009, the Bank submitted an amended capital restoration plan. In the amended
plan, CSB noted that there was no interest in the market for a possible merger or sale to another
bank. They also indicated that efforts to obtain capital commitments from other sources were
on-going but no commitments had been obtained as of the date of the amended plan submission.
Based on that information, the Bank concluded that a bulk recapitalization plan or internal
capital replenishment were the remaining options for a capital restoration plan. Ultimately,
neither of these capital restoration options occurred, and the Bank was subsequently closed on
December 18, 2009.

Based on the supervisory actions taken as noted above, the FDIC properly implemented
applicable PCA provisions of section 38.




                                                                                             I-21
                                                                                   Appendix 1


                         Objectives, Scope, and Methodology


Objectives

We performed this performance audit to satisfy the requirements of section 38(k) of the FDI Act,
which provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking agency
shall prepare a report to that agency reviewing the agency’s supervision of the institution. The
FDI Act requires that the report be completed within 6 months after it becomes apparent that a
material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure and
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution,
including implementation of the PCA provisions of section 38. We evaluated whether capital
was an adequate indicator of safety and soundness and the FDIC’s compliance with PCA
guidelines.

We conducted this performance audit from March to May 2010 in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained, as described in
the Scope and Methodology section, provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of CSB from February 2004 until its failure on
December 18, 2009. Our review also entailed an evaluation of the regulatory supervision of the
institution over the same period.

To achieve the objectives, we performed the following procedures and utilized the following
techniques:

     •   Analyzed examination and visitation reports prepared by FDIC and OFIR examiners
         from February 2004 to May 2009.

     •   Reviewed the following documentation:

           •   Financial institution data and correspondence maintained at the DSC’s Chicago
               Regional Office and Detroit Field Office, as provided to KPMG by DSC.

           •   Reports prepared by the Division of Resolutions and Receiverships (DRR) and DSC
               relating to the Bank’s closure.



                                                                                               I-22
                                                                                    Appendix 1

           •   Pertinent DSC policies and procedures.

     •   Interviewed the relevant FDIC officials having supervisory responsibilities pertaining to
         CSB, which included DSC examination staff in the Detroit Field Office.

     •   Interviewed appropriate officials from the OFIR to discuss the historical perspective of
         the institution, its examinations, and other activities regarding the state's supervision of
         the Bank.

     •   Researched various banking laws and regulations, including state laws.

KPMG relied primarily upon the materials provided by the FDIC OIG and DSC, including
information and other data collected during interviews. KPMG did not perform specific audit
procedures to ensure the information and data were complete and accurate. KPMG is, however,
aware that Circular 12000.1, Cooperation with the Office of Inspector General, dated
September 28, 2007, requires that all FDIC employees, contractors, and subcontractors cooperate
with the OIG in order for the OIG to carry out its statutory mandate. To that end, all employees,
contractors, and subcontractors must:

     (1) Provide authorized representatives of the OIG immediate and unrestricted access to all
Corporation, receivership, contractor, and subcontractor personnel, facilities, equipment, hard
copy and electronic records, files, information systems, and other sources of information when
requested during the course of their official duties.

     (2) Provide authorized representatives of the OIG immediate and unrestricted access to any
records or material available to any part of the FDIC.

Interviews were conducted to gain a better understanding of decisions made regarding the
supervisory approach to the institution and to clarify information and conclusions contained in
reports of examination and other relevant supervisory correspondence between the FDIC and the
Bank. KPMG relied on the information provided in the interviews without conducting additional
specific audit procedures to test such information.

Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs, and
interviews of examiners to understand Citizen State Bank’s management controls pertaining to
causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system controls
were not significant to the audit objectives and, therefore, did not evaluate the effectiveness of
information system controls. We relied on our analysis of information from various sources,
including ROEs, correspondence files, and testimonial evidence to corroborate data obtained
from systems that were used to support our audit conclusions.


                                                                                                 I-23
                                                                                  Appendix 1


The Government Performance and Results Act of 1993 (the Results Act) directs Executive
Branch agencies to develop a customer-focused strategic plan, align agency programs and
activities with concrete missions and goals, and prepare and report on annual performance plans.
For this material loss review, we did not assess the strengths and weaknesses of DSC’s annual
performance plan in meeting the requirements of the Results Act because such an assessment is
not part of the audit objectives. DSC’s compliance with the Results Act is reviewed in OIG’s
program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine whether the
FDIC had complied with provisions of PCA and limited tests to determine compliance with
certain aspects of the FDI Act. The results of our tests are discussed, where appropriate, in this
report. Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence.




                                                                                              I-24
                                                                                       Appendix 2


                                   Glossary of Terms


          Term                                                Definition
Adversely Classified Assets   Assets subject to criticism and/or comment in an examination report.
                              Adversely classified assets are allocated on the basis of risk (lowest to
                              highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for Loan and        An estimate of uncollectible amounts that is used to reduce the book
Lease Losses (ALLL)           value of loans and leases to the amount that is expected to be collected.
                              It is established in recognition that some loans in the institution’s
                              overall loan and lease portfolio will not be repaid. Boards of directors
                              are responsible for ensuring that their institutions have controls in place
                              to consistently determine the allowance in accordance with the
                              institutions' stated policies and procedures, generally accepted
                              accounting principles, and supervisory guidance.
Call Report                   Consolidated Reports of Condition and Income (also known as the Call
                              Reports) are reports that are required to be filed by every national bank,
                              state member bank, and insured nonmember bank pursuant to the
                              Federal Deposit Insurance Act. These reports are used to calculate
                              deposit insurance assessments and monitor the condition, performance,
                              and risk profile of individual banks and the banking industry.

Cease and Desist Order        A formal enforcement action issued by financial institution regulators to
(C&D)                         a bank or affiliated party to stop an unsafe or unsound practice or
                              violation. A C&D may be terminated when the bank’s condition has
                              significantly improved and the action is no longer needed or the bank
                              has materially complied with its terms.

Concentration                 A concentration is a significantly large volume of economically related
                              assets that an institution has advanced or committed to a certain
                              industry, person, entity, or affiliated group. These assets may, in the
                              aggregate, present a substantial risk to the safety and soundness of the
                              institution.
Prompt Corrective Action      The purpose of PCA is to resolve the problems of insured depository
(PCA)                         institutions at the least possible long-term cost to the DIF. Part 325 of
                              the FDIC Rules and Regulations, 12 Code of Federal Regulations,
                              section 325.101, et seq, implements section 38, Prompt Corrective
                              Action, of the FDI Act, 12 United States Code section 1831o, by
                              establishing a framework for taking prompt corrective supervisory
                              actions against insured nonmember banks that are less than adequately
                              capitalized. The following terms are used to describe capital adequacy:
                              Well Capitalized, Adequately Capitalized, Undercapitalized,
                              Significantly Undercapitalized, and Critically Undercapitalized.




                                                                                                    I-25
                                                                                Appendix 2



                                Glossary of Terms


          Term                                            Definition
Uniform Bank Performance   The UBPR is an analysis of financial institution financial data and
Report (UBPR)              ratios that includes extensive comparisons to peer group performance.
                           The report is produced by the Federal Financial Institutions
                           Examination Council for the use of banking supervisors, bankers, and
                           the general public and is produced quarterly from Call Report data
                           submitted by banks.




                                                                                             I-26
                                                                           Appendix 3

                                     Acronyms

ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to Market Risk
CRE      Commercial Real Estate
CSB      Citizens State Bank
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
GAGAS    Generally Accepted Government Auditing Standards
MOU      Memorandum of Understanding
OFIR     Office of Financial and Insurance Regulation
OIG      Office of Inspector General
ORL      Off-site Review List
PCA      Prompt Corrective Action
PEP      Pre-examination Planning
REST     Real Estate Stress Test
ROAA     Return on Average Assets
ROE      Report of Examination
SCOR     Statistical CAMELS Off-site Rating
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                                                                        I-27
               Part II

OIG Evaluation of Management Response
OIG Evaluation of Management Response
After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On July 20, 2010, the
Director, Division of Supervision and Consumer Protection (DSC), provided a written
response to the draft report. That response is provided in its entirety on page II-2 of this
report.

DSC reiterated the OIG’s conclusions regarding the causes of CSB’s failure and the
FDIC’s supervision of the bank. DSC stated that strong supervisory attention is
necessary for institutions with high CRE concentrations. DSC has issued updated
guidance re-emphasizing the importance of robust credit risk-management practices for
institutions with concentrated CRE exposures and setting forth broad supervisory
expectations.




                                                                                         II-1
                                    Corporation Comments



Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990              Division of Supervision and Consumer Protection

                                                                       July 20, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, Material Loss Review of Citizens State
                 Bank, New Baltimore, Michigan (Assignment No. 2010-030)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of Citizens State
Bank (CSB), New Baltimore, Illinois, which failed on December 18, 2009. This memorandum is
the response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft
Report (Report) received on June 22, 2010.

CSB failed primarily because management and the board of directors (Board) failed to provide
effective oversight and adequate risk management policies and practices as they pursued a business
strategy concentrated in commercial real estate (CRE) lending. These weak risk management
practices were centered on poor internal controls, weak underwriting and credit administration.
Significant losses in the loan portfolio ultimately depleted earnings and eroded capital.

From 2004 through December 2009 the FDIC and the Michigan Office of Financial and Insurance
Regulations (OFIR) jointly and separately conducted five examinations, one visitation, three offsite
reviews and two relationship manager bank contacts. Examiners identified key risks and brought
them to the Board’s and management’s attention through examination reports and other
correspondence. In 2006, the OFIR downgraded asset quality due to weakness in the loan portfolio
and credit administration attributed primarily to CSB’s former lending staff. Management took
corrective action with the addition of a new senior lender and improved loan controls; however,
these efforts proved to be insufficient. The March 2008 FDIC examination revealed significant
deterioration in CSB’s overall condition with a substantial level of asset quality problems,
component and composite ratings were downgraded, and an informal enforcement action was
issued. The May 2009 joint examination disclosed additional deterioration which resulted in further
rating downgrades and issuance of a formal enforcement action. CSB was unable to realize improvement
and raise necessary capital to remain viable.

DSC recognizes that strong supervisory attention is necessary for institutions with high CRE
concentrations. DSC has updated guidance re-emphasizing the importance of robust credit risk
management practices for institutions with concentrated CRE exposures and setting forth broad
supervisory expectations.

Thank you for the opportunity to review and comment on the Report.




                                                                                                   II-2
